In The
Supreme Court of The United States

ANTONIO MILLER

*

vs.
UNITED STATES

*
*

No.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The appellant, ANTONIO MILLER, by and through his appointed counsel,
Derek J. Enderlin, respectfully requests leave of this Court to proceed herein in
forma pauperis in accordance with the provisions of 28 U.S.C. §1915 and Rule 39 of
this Court.
Please note the undersigned counsel did not represent the appellant in the
proceeding before the United States Court of Appeals for the Fourth Circuit. The
undersigned’s representation was by way of appointment pursuant to the Criminal
Justice Act, 18 U.S.C. §3006A.

1

The petition for a writ of certiorari to the Supreme Court of the United States
accompanies this motion.

Originally known as the Criminal Justice Act of 1964; now titled as Criminal
Justice Act Revision of 1986.
1

1

Date: September 14, 2020

Respectfully submitted,
/s/ Derek J. Enderlin
Derek J. Enderlin
ROSS & ENDERLIN, PA
330 East Coffee Street
Greenville, SC 29601
(864) 710-3936
derek@rossenderlin.com
Counsel for Petitioner

2

